                  UNITED STATES RAILROAD RETIREMENT BOARD

                              OFFICE OF INSPECTOR GENERAL



               Fiscal Year 2005 Special Purpose Financial Statements Audit
                           LETTER TO MANAGEMENT
                       Report No. 06-02, November 17, 2005


To the Board Members:

We audited the special-purpose financial statements of the Railroad Retirement
Board (RRB) and have issued our report thereon dated November 8, 2005 in which
we rendered an unqualified opinion on fiscal year (FY) 2005 and a qualified opinion
on FY 2004. We conducted our audit in accordance with U.S. generally accepted
government auditing standards and the Office of Management and Budget’s (OMB)
audit guidance.

In planning and performing our audit of the special-purpose financial statements,
we also considered the RRB’s internal control over the financial reporting process
for the special-purpose financial statements and compliance with the TFM Chapter
4700. Management is responsible for establishing and maintaining internal control
over financial reporting, including Other Data, and for complying with laws and
regulations, including compliance with the requirements of the U.S. Department of
the Treasury’s Financial Manual (TFM) Volume I, Part 2, Chapter 4700.

Our consideration of internal control over the financial reporting process for the
special purpose financial statements would not necessarily disclose all matters in
the internal control over the financial reporting process that might be reportable
conditions. Under standards issued by the American Institute of Certified Public
Accountants, reportable conditions are matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control over
financial reporting that, in our judgment, could adversely affect the RRB’s ability to
record, process, summarize, and report financial data consistent with the
assertions made by management in the special-purpose financial statements.

Material weaknesses are reportable conditions in which the design or operation of
one or more of the internal control components does not reduce to a relatively low
level the risk that misstatements, in amounts that would be material in relation to
the special-purpose financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing
their assigned functions.

Our tests of internal control over the financial reporting process for the special-
purpose financial statements did not disclose any material weaknesses or
reportable conditions. Although not considered to be a material weakness or




844 N RUSH STREET CHICAGO IL 60611-2092                         Printed on recycled paper with soy ink
                                                                              Attachment I
                                                                                   Page 3

Ensuring Compliance with Requirements

The special-purpose financial statements, accompanying notes and supplementary
data contained in the special-purpose closing package provide financial information
to the U.S. Department of the Treasury and U.S. Government Accountability Office
for use in preparing and auditing the Financial Report of the U.S. Government. The
form and content of the special-purpose financial statements and closing package is
established by the U.S. Department of the Treasury’s in its Financial Manual (TFM)
Volume I, Part 2, Chapter 4700.

The TFM includes requirements with which an agency need comply only if
applicable to their program or business operations. The RRB needs to ensure that
the TFM requirements are formally reviewed for their applicability to this agency and
document the final determination for each item. During our audit, we were unable to
obtain assurance about the basis for management’s decision to omit certain data
from the “Other Data” section of the FY 2005 closing package.

   •	 We recommend that the RRB review TFM requirements annually and 

      document the basis for any determinations of non-applicability. 



Management’ Response

Management agrees with the recommendation. The full text of management’s
response follows as attachment II.




844 N RUSH STREET CHICAGO IL 60611-2092 	                     Printed on recycled paper with soy ink
